OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S
STRENGTHENING CIVIL
SOCIETY IN UKRAINE PROJECT

AUDIT REPORT NO. 9-121-14-002-P
May 29, 2014




WASHINGTON, D.C.
Office of Inspector General


May 29, 2014

MEMORANDUM

TO:                 USAID/Ukraine, Mission Director, Jed Barton

FROM:               IG/A/PA, Acting Director, Martha Chang /s/

SUBJECT:            Audit of USAID’s Strengthening Civil Society in Ukraine Project
                    (Report No. 9-121-14-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft version and have included them in their entirety in
Appendix II.

This report contains three recommendations to help strengthen the implementation of USAID’s
Strengthening Civil Society in Ukraine project. In its comments on the draft report, the mission
agreed with all three recommendations. Based on our evaluation of management comments
and documentation provided by the mission, we acknowledge management decisions on all
recommendations and final action has been taken on 1 and 2. Please coordinate final action for
recommendation 3 with the Audit Performance and Compliance Division of USAID’s Office of
the Chief Financial Officer.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................4

     Project’s Primary Goal Was Not Realistic ..............................................................................4

     Civil Society Organizations Were Not More Financially Sustainable ......................................5

     USAID’s Verification of Pact’s Data Was Inadequate ............................................................6

Evaluation of Management Comments....................................................................................8

Appendix I—Scope and Methodology .....................................................................................9

Appendix II—Management Comments ..................................................................................11
SUMMARY OF RESULTS
In November 2004, millions of Ukrainians protested the presidential election, outraged that
Viktor Yushchenko lost to Prime Minister Viktor Yanukovich. Known as the Orange Revolution,
the protesters—many of whom carried banners of orange, the color of Yuschenko’s campaign—
demanded a recount. Their efforts were rewarded, and Yushchenko became president.

According to Freedom House, the results of the next presidential election in 2010 met most
international standards. However, after the election, the ruling Party of the Regions redefined
rules in the political system and reversed many of the democratic gains adopted following the
Orange Revolution. Two years later, flawed parliamentary elections occurred and threatened
the country’s status as an electoral democracy. 1

Ukraine gained its independence from the Soviet Union in 1991 and established diplomatic
relations with the United States. U.S. policy has focused on helping Ukraine become a
democratic state “more closely integrated into the Europe and Euro-Atlantic structures.” 2 Since
2007, the European Union (EU) and Ukraine have negotiated agreements designed to support
reforms for political association and economic integration. The negotiations ended in 2012, and
the EU established requirements that Ukraine was to follow so the agreements could be signed
during the third Eastern Partnership summit in November 2013. 3 However, days before the
summit began, the Ukrainian Government announced that it would suspend plans for
agreements with the EU and instead pursue closer ties with Russia. Protests and civil unrest
ensued.

Civil society organizations (CSOs) 4 have taken part in some of the recent protests. These
organizations play an important role in keeping government accountable, citizens engaged, and
democratic reforms on track. USAID/Ukraine’s Strengthening Civil Society in Ukraine (SCSU)
project’s 5 primary goal is to “strengthen and assist leading pro-reform Ukrainian non-
governmental organizations to sustain and consolidate democratic gains.” To accomplish this, it
aims to work with local partners as equals in implementing all project activities.

According to the cooperative agreement, the project has four objectives that address challenges
to civil society and assist CSOs with monitoring and advocacy initiatives that are essential to
advancing Ukraine’s reform process. They are:

1. NGOs better represent citizen interests and drive reform agenda through more effective
   advocacy, monitoring, and activism (50 percent level of effort).

2. The relevant legislative framework for civil society approaches European standards
   (5 percent level of effort).

3. NGOs are transparently governed and capably managed (20 percent level of effort).


1
  Freedom House, Freedom in the World 2013.
2
  Department of State fact sheet, “U.S. Relations With Ukraine,” July 30, 2013.
3
  European Commission Memo, “Eastern Partnership Summit Factsheet,” November 26, 2013.
4
  Various definitions of CSO and NGO exist. For this report, we use them interchangeably.
5
  The project also is known as Ukraine National Initiatives to Enhance Reforms project, or UNITER.


                                                                                                     1
4. Civil society organizations are more financially sustainable and less dependent on foreign
   donors (25 percent level of effort).

USAID/Ukraine awarded Pact 6 a 5-year cooperative agreement to implement the project,
effective October 1, 2008. The agreement was extended in September 2013 for an additional
year. Including modifications and the 1-year extension, the total amount awarded comes to
$14.3 million. As of September 30, 2013, $13.7 million had been obligated and $12.7 million had
been spent.

The Performance Audits Division of the Office of Inspector General (OIG) conducted this audit
to determine whether the project has achieved its main goal of strengthening and assisting
leading pro-reform Ukrainian NGOs to sustain and consolidate democratic gains.

The project accomplished notable achievements in three of its four objectives.

Objective 1. Pact reported providing 116 local advocacy grants to CSOs and coalition groups
that achieved positive results in areas such as local government accountability, citizen
participation, and empowering disadvantaged groups. Pact reported that grantees initiated
69 advocacy campaigns that led to the approval of 62 local level regulatory acts. In addition,
Pact reported that coalition efforts that included the participation of local and national actors
initiated 29 regulatory acts and public policies at the national level.

Objective 2. The project supported 46 positive modifications made to enabling legislation or
regulations for civil society at local and national levels. For example, the Law on Charity and
Charitable Organizations was adopted in part because of a project partner that led efforts to
draft the law. The new law simplified registration procedures for charitable organizations,
increased their transparency requirements, and gave them new ways of getting funding, such as
charitable bequests.

Objective 3. Pact reported that it helped 551 organizations improve their internal organizational
capacity. Through the Marketplace voucher system, project grantees and other CSOs applied
for consultations, training, and educational programs in areas such as strategic planning,
organizational and financial management, and fund-raising skills.

Despite these notable achievements, the audit found that:

•     The project’s primary goal was not realistic (page 4). The goal was difficult to achieve, and
      even if realized, the results may not be directly attributed to the project.

•     CSOs were not more financially sustainable (page 5). They remained largely dependent on
      funding from international donors.

•     USAID’s verification of Pact’s data was inadequate (page 6). The performance indicator
      results Pact reported to the mission were not always accurate or reliable.

To address these issues, we recommend that USAID/Ukraine:




6
    Pact is a nonprofit organization based in Washington, D.C.


                                                                                                 2
1. Assess whether the project’s goal is achievable in the current operating environment, and if
   not, take corrective actions to address the deficiency, and document in writing the
   assessment and any corrective actions taken (page 5).

2. Determine and document lessons learned from activities under Objective 4, and to the
   extent possible, apply them to the 1-year extension activities and to any successor project
   (page 6).

3. Implement a plan requiring responsible mission staff to periodically verify data reported by
   its implementing partners, including for this project, and to document verification activities
   and results (page 7).

Detailed findings appear in the following section. The audit’s scope and methodology appear in
Appendix I. Management comments appear in Appendix II, and our evaluation of these
comments is on page 8.




                                                                                               3
AUDIT FINDINGS
Project’s Primary Goal Was Not
Realistic

Sound project management emphasizes that objectives must be verifiable, realistic, attainable,
and not overly complex. 7 At USAID, the portfolio review process required by Automated
Directives System (ADS) 203.3.12 gives missions an annual opportunity to learn and get
feedback on its projects, and, if needed, to take corrective actions.

Although project activities in Ukraine have resulted in some notable achievements, taken
collectively, they did not have the anticipated impact of sustaining the country’s overall
democratic development. One key contributing factor to this has been Ukraine’s difficult political
environment. Democratic development in Ukraine has either made little or no progress
according to most standard indices of democratic performance. For example:

•   Freedom House’s Freedom in the World 2013 index showed a downward trend because of
    “a decline in the quality of its legislative elections, greater government pressure on the
    opposition, and a new language law that favored Russian speakers while neglecting smaller
    minorities.”

•   The 2012 Democracy Index from the Economist Intelligence Unit showed decreases since
    2008 and reported that democratic gains of the Orange Revolution are being undermined.

•   The CSO sustainability index 8 has improved only slightly since the project began in 2008,
    from 3.6 that year to 3.4 in 2012. Mission employees said the index was a performance
    indicator for the project, and the goal was to attain a score of 3.0 by the end of fiscal year
    (FY) 2013. However, employees in the mission and the Europe and Eurasia (E&E) regional
    bureau said the index was a contextual or proxy indicator and could not be linked
    specifically to the project’s interventions.

Both mission and Pact staff acknowledged that the project was designed when prospects for
positive democratic reforms were better. One assumption behind the project, as defined in the
mission’s concept paper, was that the Ukrainian Government would continue to pursue reforms.
Mission staff acknowledged in the paper that if Ukraine were to backslide significantly, the
mission would have to reevaluate the project. However, when the conditions changed during
project implementation, the staff said they did not modify the project because they believed the
objectives and activities addressed the political environment adequately.




7
  Harold Kerzner, Project Management: A Systems Approach to Planning, Scheduling, and Controlling, 9th edition,
2006.
8
  USAID, 2012 CSO Sustainability Index for Central and Eastern Europe and Eurasia, June 2013. This index is a
measure of the strength and overall viability of CSO sectors in 29 countries in Central and Eastern Europe and
Eurasia. Scores are assigned for seven areas, such as advocacy and public image, and they range from one to
seven. One indicates a very advanced civil society sector with a high level of sustainability, and seven indicates a
fragile, unsustainable sector with a low level of development.


                                                                                                                  4
The primary goal “to strengthen and assist leading pro-reform Ukrainian [CSOs] to sustain and
consolidate democratic gains” was difficult to achieve, and, even if realized, the results may not
be directly attributed to the project.

Over the course of the project, the mission had several opportunities to modify the goal to better
reflect the political changes and assumptions that guided the design and development and the
problems with attribution. One of these opportunities was through the mission’s annual portfolio
review.

The mission’s selection of an overly complex goal in which results could not be directly or solely
attributed to the project resulted in SCSU’s primary goal not being met. Therefore, we make the
following recommendation.

    Recommendation 1. We recommend that USAID/Ukraine assess whether the project’s
    goal is achievable in the current operating environment, and if not, take corrective
    actions to address the deficiency, and document in writing the assessment and any
    corrective actions taken.

Civil Society Organizations Were Not
More Financially Sustainable
One of the operational principles of USAID’s Policy Framework 2011-2015 is to build
sustainability into USAID programs from the start. To bolster this, ADS 200.3.1.5 states that the
goal, among other things, is for countries “to develop resilience against shocks and other
setbacks.” ADS also states that sustainability considerations include building the skills and
capacity of critical local stakeholders to maintain gains after the project ends and making sure
that relevant activities or services are tied gradually to sustainable financing models.

During project design, the mission noted, “Financial sustainability remains perhaps the biggest
obstacle facing the sector, and certain types of [CSOs] are more likely than others to continue to
depend on donors.”

The project’s fourth objective was to have CSOs be more financially sustainable and less
dependent on foreign donors than they were at the start. Pact’s performance monitoring and
evaluation plan (PMEP) 9 had three performance indicators for this objective. Pact reported the
following results for the end of the project:

1. Level of partner capacity in key functions including financial management, budgeting control
   and auditing, accounting procedures, internal controls, sustainability planning. The project
   achieved its target for this indicator, which was 80 percent.

2. Percentage of budget received from corporate, private, or Ukrainian government funding by
   grantee. The ultimate target for local advocacy grantees was 30 percent, and national
   grantees had no target. At the end of FY 2013, local grantees received 28 percent of their
   budgets from these sources, and national grantees received 5 percent.

3. Percentage of grantees with diversified sources of income. The end of project target was
   75 percent, revised from the start when it was 44 percent of grantees received funding from
9
  Pact’s PMEP table included custom USAID indicators and standard U.S. Government Foreign Assistance
Framework indicators, and it identified progress toward results.


                                                                                                  5
   business and 30 percent received funding from government. At the end of the project,
   39 percent received funding from businesses and 28 percent from government.

Throughout the project’s first 5 years, Pact reported that a variety of activities took place to help
achieve its fourth objective. They included building and funding civic-private partnerships,
funding and rewarding public-private partnerships, and helping them get contracts with
governments to provide social services.

According to mission staff, activities for this objective will be incorporated into the other
three objectives during the 1-year extension. Fund-raising will be addressed by the Marketplace
in Objective 3, and other partners involved in Objectives 1 and 2 are working on legislation to
make the environment more conducive to CSOs. The rationale is that improving the regulatory
framework for CSOs should help them raise funds.

Despite these efforts, CSOs continue to remain largely dependent on funding from international
donors. Pact and mission officials attributed this to Ukraine’s economy, which one of Pact’s
partners reported resulted in a significant decrease in funding from local sources and a lack of
interest in funding advocacy and watchdog organizations. To help overcome these problems,
we make the following recommendation.

   Recommendation 2. We recommend that USAID/Ukraine determine and document
   lessons learned from activities under Objective 4 and, to the extent possible, apply them
   to the 1-year extension activities and to any successor project.

USAID’s Verification of Pact’s Data
Was Inadequate
ADS 203.3.11.3 “Conducting Data Quality Assessments,” states, “The Mission is responsible for
identifying data quality issues and solutions as they become apparent anytime during the life of
the activity.”

USAID/Ukraine’s mission order on project monitoring states, “USAID managers together with
the implementing partners should ensure that performance data meet the following five data
quality standards: validity, reliability, timeliness, precision and integrity” to be useful for
monitoring and credible for reporting. The order also states, “The involvement of [USAID staff] in
managing Grants and Cooperative Agreements is not as substantial as in the case of a contract.
However, this does not diminish the responsibilities of [USAID staff] in monitoring outputs and
linking these with the intended results of the program.”

The performance indicator results Pact reported to the mission in the PMEP table were not
always accurate or reliable. Pact is responsible for entering information into its project
spreadsheets and transferring the data to the PMEP table. However, information in the
spreadsheets did not always match the data reported in the table; in some cases the supporting
documentation did not support what was in the table. The following 6 of 12 indicators tested
contained errors.

1. Percentage of grantees that increased their capacity in key functions including leadership,
   governance, [and] financial management. For this indicator, the SCSU database did not
   match the PMEP table. After we raised this discrepancy with Pact officials, they revised the
   table. Some of the percentage changes were significant, such as the FY 2012 actual result



                                                                                                   6
     reported as 71 percent in the PMEP table was revised to 55 percent. However, the end of
     project target of 50 percent was still met.

2. Number of capacity building vouchers redeemed by grantees/partners/NGOs to fulfill
   institutional sustainability plan needs through marketplace. The FY 2013 results reported
   256 vouchers redeemed; however, the actual number was 81. Pact officials said this was a
   typographical error.

3. Number of individuals receiving voter and civic education through USG-assisted programs.
   The final result for this indicator significantly exceeded its target. Pact’s staff said the results
   were overstated by roughly 100,000 due to a typographical error.

4. Percentage of grantees with diversified source of income. The final totals for this indicator
   were reported in reverse for percentage of grantees receiving income from government and
   percentage receiving income from business. Pact revised the PMEP table accordingly.

5. Number of partners that are ready for international audit. Pact did not apply the established
   methodology consistently when measuring the results of this indicator. Those recorded in
   the PMEP table were incorrect for 2 of 3 fiscal years reported, as well as the final result.
   However, when we applied the established methodology consistently during testing, our
   analysis showed that the final goal was met.

6. Number of positive modifications made to enabling legislation/regulation for civil society
   accomplished with USG assistance. Accomplishments were reported in the wrong fiscal
   years, and results reported in fiscal years 2010 through 2013 were incorrect. However, each
   target was met.

These problems occurred for the following reasons. First, when asked why these errors
occurred, Pact staff said it was because of the database’s design. They did not expect to
capture such a large amount of data, and they used separate Excel spreadsheets that were not
linked together. The project has more than 30 indicators.

Second, mission staff finished data quality assessments on only three indicators, 10 and they did
not conduct assessments based on the results of reviewing systems used to collect data and
whether they are likely to produce quality data. They said Pact was audited, and the mission did
not have relations with the subgrantees. They explained that they verified data instead by,
among other things, attending events, reading local newspapers, and talking to other donors
and project grantees.

Although not all errors identified had a material or negative impact on the reported results, it is
highly possible that we did not find all the errors. Because this information becomes the basis
for policy and budgets, poor-quality data can prevent management from making sound
decisions and reduce confidence that projects are achieving intended results. Therefore, we
make the following recommendation.

     Recommendation 3. We recommend that USAID/Ukraine implement a plan requiring
     responsible mission staff to periodically verify data reported by its implementing
     partners, including for this project, and to document verification activities and results.

10
  Number of policies that have been influenced by CSOs, Number of CSOs using U.S. government
assistance to improve internal organizational capacity, and the CSO sustainability index.


                                                                                                     7
EVALUATION OF MANAGEMENT
COMMENTS
In their comments on the draft report, mission officials agreed with all three recommendations,
and we acknowledge management decisions on all of them. Based on our review of
management’s comments and supporting documentation, we agree that final action has been
taken on recommendations 1 and 2. A detailed evaluation of management comments follows.

Recommendation 1. Mission officials agreed with the recommendation. The mission completed
the design process for its continuing civil society support work known as the Civic Oversight
Project. It has eight activities, three of which are follow-on or successors to SCSU. The officials
said the new project was designed to align with Agency guidance that focuses on what is within
the mission’s control. Based on these comments and the supporting documentation provided,
we acknowledge that the mission made a management decision, and final action has been
taken on recommendation 1.

Recommendation 2. Mission officials agreed with the recommendation. The mission removed
Objective 4 as a specific objective in the 1-year extension, and lessons learned from activities
were included in SCSU’s follow-on and successor activities that are part of the Civic Oversight
Project. Based on their comments and the supporting documentation provided, we acknowledge
that the mission made a management decision, and final action has been taken on
recommendation 2.

Recommendation 3. Mission officials agreed with the recommendation. They said they plan to
use three tools to increase monitoring and evaluation: AID Tracker Plus, a database that will
give the mission current program data; a standardized mission order on performance monitoring
that will reflect current Agency guidance; and a country development cooperation strategy
performance monitoring plan, which tracks project results against the mission’s development
strategy.

Additionally, mission officials said they would incorporate a clause into all civil society activities’
award documents that requires the PMEP to comply with ADS 203, Sections 203.3.5-203.3.11,
which includes data quality standards. Further, for the SCSU follow-on activity, the mission
noted that the implementing partner modified staff job descriptions, one of which makes an
employee responsible for ensuring high quality data. Based on these comments and supporting
documentation provided, we acknowledge that mission made a management decision. The
mission expects implementation will be completed within 1 year.




                                                                                                     8
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether the Strengthening Civil Society in Ukraine
project was achieving its primary goal of strengthening and assisting leading pro-reform
Ukrainian CSOs to sustain and consolidate democratic gains. The audit covered the project’s
original 5-year period that ended September 30, 2013, and the 1-year extension to
September 30, 2014. The cooperative agreement and extension were worth $14.3 million.

We conducted this audit at USAID/Ukraine and USAID/Washington. Audit fieldwork was
performed from September 25, 2013, through March 3, 2014.

The audit team assessed significant internal controls USAID/Ukraine used to monitor program
activities and verify performance data. We reviewed relevant Agency policies and mission
orders. We obtained information and reviewed documents concerning the mission’s monitoring
activities of Pact’s annual work plans and semiannual and annual performance reports. We
examined the mission’s data quality assessment documents and got information about its data
verification procedures. The team also reviewed the mission’s Federal Manager’s Financial
Integrity Act for FY 2013 and Pact’s reporting systems, and verified performance data.

Methodology
To answer the audit objective, we obtained an understanding of the program, performance
monitoring and evaluation, and results by examining documentation, including the cooperative
agreement and modifications between the mission and Pact; Pact’s PMEP; subawards between
Pact and subpartners; and Pact’s annual work plans and semiannual and annual performance
reports. We examined requirements in the cooperative agreement and subsequent
modifications, relevant chapters of ADS, and mission orders. Additionally, we considered project
management best practices.

The audit team also reviewed the CSO sustainability indices for 2012 and 2013, and obtained
an understanding of how the scores were determined. We also reviewed the mission’s data
quality assessment documents for completeness and examined the data quality assessment
activities. We examined financial audit reports of major SCSU subgrantees to determine
compliance with USAID auditing requirements.

We researched external sources and interviewed mission and Pact employees about Ukraine’s
political environment. Additionally, the audit team interviewed USAID/Ukraine officials and staff,
USAID E&E bureau staff, Pact staff, midterm and final project evaluators, and project grant
recipients. We visited several SCSU subgrantees.




                                                                                                9
                                                                                        Appendix I


The team judgmentally selected 12 performance indicators to assess whether the project was
achieving its goals and to verify the reliability of the results reported in Pact’s PMEP. We
selected at least one performance indicator from each of the project’s four objectives. The
selection included standard U.S. Government Foreign Assistance Framework indicators,
because they are reported outside of USAID. We performed a judgmental selection because we
did not need to project the results. Therefore, the results of the performance indicator testing
cannot be extrapolated to the entire universe of a particular indicator or to the entire universe of
indicators. We believe the selection provides a reasonable basis for our conclusions.




                                                                                                 10
                                                                                 Appendix II



MANAGEMENT COMMENTS



April 28, 2014

TO:      Donell Ries, IG/A/PA, Acting Director
FROM:    Jed Barton, USAID/Ukraine, Mission Director /s/
SUBJECT: Audit of USAID’s Strengthening Civil Society in Ukraine Project (Draft
         Report No. 9-121-14-XXX-P)


USAID Ukraine is grateful for the Office of Inspector General’s (OIG) insightful review of
the Strengthening Civil Society in Ukraine project (also known as UNITER – Ukraine
National Initiatives to Enhance Reforms). This review has provided the Mission and our
implementing partner PACT, Inc. an opportunity to reflect on the implementation and
management of program activities, accomplishments, and challenges.

The following represents the Mission’s response to each recommendation presented in
the draft audit report and the Mission’s management decisions on Recommendations 1,
2 and 3.

Recommendation 1: We recommend that USAID/Ukraine assess whether the project’s
goal is achievable in the current operating environment, and if not, take corrective
actions to address the deficiency, and to document in writing the assessment and any
corrective actions taken.

   The Mission agrees with this recommendation. The project’s main goal was to
   strengthen and assist leading pro-reform Ukrainian NGOs to sustain and consolidate
   democratic gains. USAID understands that external factors outside of USAID’s
   manageable interests play a significant role in the consolidation, or break down of,
   democratic gains in the country. While USAID and its programming can make
   attributable contributions to strengthening civil society, it is unable to control the
   myriad of other factors that also affect democratic consolidation. Based on this
   understanding and audit recommendations, USAID has revised its civil society
   strengthening activity goals to better reflect achievable outcomes of project activities.




                                                                                         11
                                                                                  Appendix II


   Simultaneous to the OIG audit, USAID completed the design process for the next
   iteration of civil society support activities in Ukraine which presented an opportune
   time to reconsider goals and make adjustments. This design process was in line with
   the most recent Agency guidance, which makes a clear distinction between projects
   and activities – including clarity of stated goals for each and a focus on what is in
   USAID’s manageable interests. USAID used this opportunity to adjust its approach
   to civil society support and designed the Civic Oversight Project (COP) comprised of
   eight activities, all of which are outlined in the COP Project Appraisal Document
   (PAD). Three of these activities are UNITER follow on activities and they each have
   a revised activity goal (described as “purpose” in activity descriptions), which
   contribute to the expected Civic Oversight Project outcome.

   Further, to inform the design process of these three activities, USAID completed a
   performance evaluation of UNITER to assess the effectiveness of performance and
   used the findings, conclusions and recommendations to adjust its approach in
   improving Ukraine’s civil society sector.

   As a result, USAID/Ukraine now has three separate, but complimentary, activities
   that strengthen Ukrainian civil society. Their stated purposes are:

   1. To increase citizen support for and participation in specific civil society activities
      (UNITER follow on activity that will focus on advocacy);

   2. To improve legislative and policy environment to be more conducive to civil
      society and reflect European standards (Ukraine Civil Society Enabling
      Environment activity); and

   3. To improve organizational capacities of Ukrainian civil society organizations to
      become stronger citizen advocates and government watchdogs (Ukraine Civil
      Society Capacity Building activity).

   The Mission deems that the recommendation has been fully addressed and kindly
   requests that it be closed upon issuance of the final audit report.

Recommendation 2: We recommend that USAID/Ukraine determine and document
lessons learned from activities under Objective Four and, to the extent possible, apply
them to the 1-year extension activities and to any successor project.

   The Mission agrees with this recommendation. The Cooperative Agreement was
   amended (Modification #8, attached) in September 2013 which extended the project
   period for one year to continue project activities and transition two local
   organizations from sub-recipients to direct recipients. This modification also
   redirected Objective 4 efforts and the lessons learned (i.e., civil society organizations


                                                                                           12
                                                                                   Appendix II


   [CSOs] are more financially sustainable and less dependent on foreign donors) to
   the three other Objectives (i.e., NGOs better represent citizen interests and drive the
   reform agenda through more effective advocacy, monitoring and activism; the
   relevant legislative framework for civil society approaches European standards; and
   NGOs are transparently governed and capably managed). See p.6 of the
   Modification #8.

   As with the stated goal of the UNITER project, USAID’s technical team understands
   that making local organizations financially independent and non-reliant on donor
   funds is outside of USAID’s attribution and manageable interests. While USAID has
   improved the capacity of Ukrainian organizations to become more financially
   sustainable through improved internal controls, strengthened management, and
   improved legislative environment that allows for diversified funding, it is not able to
   control other external factors which affect the financial sustainability of watchdog and
   advocacy organizations. Therefore, Objective 4 was eliminated as a specific
   objective and lessons learned from activities were incorporated into the design
   process for the next iteration of civil society strengthening activities.

   The Mission deems that the recommendation has been fully addressed and kindly
   requests that it be closed upon issuance of the final audit report.

Recommendation 3: We recommend that USAID/Ukraine implement a plan requiring
responsible mission staff to periodically verify data reported by its implementing
partners, including for this project, and to document its verification activities and results.

       The Mission agrees with this recommendation. USAID/Ukraine, Moldova, Belarus
       and Cyprus (UMBC) has increased its attention to monitoring and evaluation of
       project results. The Mission has incorporated, or revised, three monitoring and
       evaluation tools that aim to strengthen results and the Mission’s integration of
       these results into future programming. These tools are AID Tracker Plus, a
       standardized Mission Order on Performance Monitoring (to replace the existing
       and outdated Mission Order) and the Country Development Cooperation Strategy
       Performance Monitoring Plan (CDCS PMP). AID Tracker Plus is a database that
       will allow the Mission to see program data in real time (as opposed to periodic
       annual reporting and portfolio review data collection) and allow for the Program
       Office and project/activity managers to adjust implementation more rapidly. It
       helps link monitoring and evaluation, mapping, strategy and result for mission-
       wide programming. The standardized Mission Order on Performance Monitoring
       will be issued to the USAID/UMBC within six months and will reflect the current
       ADS Chapter 203. It will outline UMBC’s monitoring policy, responsibilities of
       those who collect and monitor data, and tools for collection and analysis. Finally,
       USAID/UMBC has also developed the CDCS PMP which monitors and tracks
       project results against the Mission’s overarching development strategy. In
       tandem, these tools will help the Mission to further its goal of systematic program



                                                                                            13
                                                                              Appendix II


      monitoring in order to improve upon activity implementation and associated
      development results. At the activity level, USAID will periodically verify data
      reported by implementing partners in accordance with COR/AOR designation
      letters.
      The Mission deems that the recommendation will be fully addressed upon the
      implementation of the tools described above, which the Mission expects to be
      completed within one year.

      Since management action has been taken on recommendations 1 and 2 of the
      draft report, we request that these recommendations be closed upon issuance of
      the final report.

Thank you.

Drafted: Dawn Carmin and Victoria Marchenko, ODG

Cc:   Christopher Frost, Director, RCO, USAID/Ukraine
      Brian Fink, D/Director, PCS
      V. Kate Somvongsiri , ODG Director
      Victoria Marchenko, PACT, AOR, USAID/Ukraine
      Susan Fenno, Controller, USAID/Ukraine
      Tatyana Skripka, SFA, USAID/Ukraine
      Ann Marie Yastishock, USAID/DMD
      Gloria White, Division Chief, M/CFO/APC
      Teresa Cooper, Management Analyst, M/CFO/APC
      Susan Baxter, IG/A/PPA




                                                                                        14
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
